U.S. Department of Justice
Office of the Inspector General




   Report to Congress on Implementation
   of Section 1001 of the USA PATRIOT Act
       (as required by Section 1001(3) of Public Law 107-56)




                                       September 13, 2004
Office of the Inspector General, U.S. Department of Justice


        Section 1001 of the USA PATRIOT Act (Patriot Act), Public Law 107-56,
directs the Office of the Inspector General (OIG) in the U.S. Department of
Justice (DOJ or Department) to undertake a series of actions related to claims
of civil rights or civil liberties violations allegedly committed by DOJ employees.
It also requires the OIG to provide semiannual reports to Congress on the
implementation of the OIG’s responsibilities under Section 1001. This report –
the fifth since enactment of the legislation – summarizes the OIG’s Section
1001-related activities from December 16, 2003, through June 21, 2004.

I.    INTRODUCTION

      The OIG is an independent entity in the DOJ that reports to both the
Attorney General and Congress. The OIG’s mission is to investigate allegations
of waste, fraud, and abuse in DOJ programs and personnel and to promote
economy and efficiency in DOJ operations.

      The OIG has jurisdiction to review programs and personnel in all DOJ
components, including the Federal Bureau of Investigation (FBI), the Drug
Enforcement Administration (DEA), the Federal Bureau of Prisons (BOP), the
Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF), the U.S. Attorneys’
Offices, and other DOJ components.

       The OIG consists of the Immediate Office of the Inspector General and
the following divisions and offices:

      •   Audit Division is responsible for independent audits of Department
          programs, computer systems, and financial statements.

      •   Evaluation and Inspections Division provides an alternative
          mechanism to traditional audits and investigations to review
          Department programs and activities.

      •   Investigations Division is responsible for investigating allegations of
          bribery, fraud, abuse, civil rights violations, and violations of other
          criminal laws and administrative procedures that govern Department
          employees, contractors, and grantees.

      •   Office of Oversight and Review blends the skills of attorneys,
          investigators, and program analysts to investigate or review high
          profile or sensitive matters involving Department programs or
          employees.

      •   Office of General Counsel provides legal advice to OIG management
          and staff. In addition, the office drafts memoranda on issues of law;
          prepares administrative subpoenas; represents the OIG in personnel,


                                            1
Office of the Inspector General, U.S. Department of Justice


           contractual, and legal matters; and responds to Freedom of
           Information Act requests.

       •   Management and Planning Division assists the OIG by providing
           services in the areas of planning, budget, finance, personnel, training,
           procurement, automated data processing, computer network
           communications, and general support.

      The OIG has a staff of over 415 employees, about half of whom are based
in Washington, D.C., while the rest work from 16 Investigations Division field
and area offices and 7 Audit Division regional offices located throughout the
country.

II.    SECTION 1001 OF THE PATRIOT ACT

       Section 1001 of the Patriot Act provides the following:

             The Inspector General of the Department of Justice shall
             designate one official who shall -

              (1)   review information and receive complaints alleging abuses
                    of civil rights and civil liberties by employees and officials
                    of the Department of Justice;

              (2)   make public through the Internet, radio, television,
                    and newspaper advertisements information on the
                    responsibilities and functions of, and how to contact, the
                    official; and

              (3)   submit to the Committee on the Judiciary of the House
                    of Representatives and the Committee on the Judiciary of the
                    Senate on a semi-annual basis a report on the implementation
                    of this subsection and detailing any abuses described in
                    paragraph (1), including a description of the use of funds
                    appropriations used to carry out this subsection.

III.   CIVIL RIGHTS AND CIVIL LIBERTIES COMPLAINTS

       Review information and receive complaints alleging abuses of
       civil rights and civil liberties by employees and officials of the
       Department of Justice.




                                            2
Office of the Inspector General, U.S. Department of Justice



       The OIG established the Special Operations Branch in its Investigations
Division in 2001 to help manage its investigative responsibilities outlined in
Section 1001.1 The Special Agent in Charge (SAC) who directs this unit is
assisted by two Assistant Special Agents in Charge (ASAC), one of whom has
responsibility for Section 1001 and DEA matters and a second who coordinates
FBI matters. In addition, Investigative Specialists support the unit and divide
their time between Section 1001 and FBI/DEA responsibilities.

      The OIG receives civil rights and civil liberties complaints via mail,
e-mail, telephone, and facsimile. The complaints initially are reviewed by the
Investigative Specialist and ASAC responsible for Section 1001 matters, and
the complaints are entered into the OIG’s investigations database.

      One of the initial determinations is whether a complaint alleges the type
of abuse of civil rights and civil liberties contemplated by Section 1001 of the
Patriot Act. While the phrase “civil rights and civil liberties” is not specifically
defined in the Patriot Act, the OIG has looked to the “Sense of Congress”
provisions in the statute, namely Sections 102 and 1002, for context.
Sections 102 and 1002 identify certain ethnic and religious groups – including
Muslims, Arabs, Sikhs, and South Asians – who may be vulnerable to abuse
due to a possible backlash from the September 11, 2001, terrorist attacks.

      The more serious civil rights and civil liberties allegations that relate to
actions of a DOJ employee or DOJ contractor generally are investigated by the
OIG, primarily by Special Agents in an OIG Investigations Division field office.
Some complaints are assigned to the OIG’s Office of Oversight and Review for
investigation.

       Given the large number of complaints and the OIG’s limited resources,
the OIG does not investigate all allegations made against DOJ employees.
Instead, the OIG refers for appropriate handling many complaints involving
DOJ employees to internal affairs offices in DOJ components, such as the FBI
Inspection Division, the DEA Office of Professional Responsibility, and the BOP
Office of Internal Affairs. In certain referrals, the OIG requires the components
to report the results of its investigations to the OIG.

       Many complaints involve matters outside the OIG’s jurisdiction because
the subjects of the complaints are not DOJ employees. Such complaints that
identify a specific issue for investigation are forwarded to the appropriate
investigative entity outside DOJ, if one can be identified. For example,
complaints of mistreatment by airport security staff are sent to the Department

       1This unit also is responsible for coordinating the OIG’s review of allegations of
misconduct by employees in the FBI and the DEA.



                                               3
Office of the Inspector General, U.S. Department of Justice


of Homeland Security OIG. We also have forwarded complaints during this
reporting period to the OIG at the U.S. Department of State, the U.S.
Department of Commerce, and the Department of Veterans Affairs. In
addition, we have referred complainants to a variety of police department
internal affairs offices which have jurisdiction over the subject of the
complaints.

       When an allegation received from any source involves a potential
violation of federal civil rights statutes by a DOJ employee, OIG staff also
discusses the complaint with the DOJ Civil Rights Division for possible
prosecution. In some cases, the Civil Rights Division accepts the case and
requests additional investigation by either the OIG or the FBI. In other cases,
the Civil Rights Division declines prosecution. Even in the event of a
declination, the OIG may continue investigating the complaint as an
administrative matter.2      TP   PT




       A.          Complaints Processed this Reporting Period

       From December 16, 2003, through June 21, 2004, the period covered by
this report, the OIG processed the following number and types of complaints:

       •         Number of complaints processed suggesting a Section 1001-related
                 civil rights or civil liberties connection:3 1,613
                                                                  TP   PT




       •         Number of “unrelated” complaints:4 996 TP   PT




       •         Number of complaints outside the OIG’s jurisdiction:5 410     TP   PT




        2 The OIG can pursue an allegation either criminally or administratively. Many OIG
       TP   PT




investigations begin with allegations of criminal activity but, as is the case for any law
enforcement agency, do not end in prosecution. When this occurs, the OIG is able to continue
the investigation and treat the matter as a case for potential administrative discipline.

       3
       TPThis number includes all complaints in which the complainant makes any mention of
            PT




a Section 1001-related civil rights or civil liberties violation, even if the allegation is not within
the OIG’s jurisdiction.

       4
       TP Complaints in this category do not cite an improper act by a DOJ employee or
            PT




contractor or a discernible nexus between the alleged conduct of the DOJ employee/contractor
and a Section 1001-related civil rights or civil liberties violation. Examples in this category
include complaints that the government has implanted devices in complainants’ heads to
control or interfere with their thoughts or actions, or that the government is pumping
poisonous gas into their homes.

       5
       TPThese complaints generally cite issues that involve federal agencies other than the
            PT




DOJ, state governments, local law enforcement agencies, or private businesses. Examples
include allegations that law enforcement officers outside of the DOJ used excessive force or
engaged in improper retaliation, unfair labor practices, discrimination, or other civil rights


                                                  4
Office of the Inspector General, U.S. Department of Justice


       •         Number of complaints within the OIG’s jurisdiction: 208

            •    Number of complaints within the OIG’s jurisdiction in which the OIG
                 or another internal affairs office within a DOJ component opened an
                 investigation or conducted a closer review: 13

        The 208 complaints processed by the OIG during this reporting period
that fell within the OIG’s jurisdiction (i.e., that state a Section 1001-related
                                                  U       U




claim involving a DOJ component or employee) covered a wide variety of
matters. They included allegations of: a) excessive force, verbal abuse,
discrimination, retaliation, and other custody-related abuses by BOP staff;
b) illegal search and seizure by FBI agents; c) excessive force by DEA agents;
and d) racial profiling by FBI and DEA agents.

       However, many of the 208 complaints in this category, while within the
OIG’s jurisdiction and couched as a “civil rights” complaint, did not raise
issues that implicate our duties under Section 1001. For example, the OIG
received numerous complaints from non-Muslim inmates alleging they are not
receiving proper medical care or do not have access to adequate library
materials.

       With the possible exception of one matter, none of the 208 complaints
alleging misconduct by DOJ employees related to use of a provision in the
Patriot Act.6     TP   PT




       After analyzing the complaints in this category, the OIG identified 13
matters that warranted opening an investigation or conducting a closer review.
These complaints, which varied in seriousness, included allegations of racial
profiling by the FBI or the DEA, denial of access to counsel, verbal abuse of
inmates, and placement of an inmate in solitary confinement without cause.

       B. Section 1001 Complaints Investigated by the OIG

                            1.   New matters opened this reporting period

      During this reporting period, the OIG opened three new Section 1001-
related investigations, continued seven ongoing Section 1001-related cases,


violations. We either refer these complaints to the appropriate entity or advise the
complainants of the entity with jurisdiction over their allegations.

       6 The one matter that we are reviewing that may have involved the use of a provision of
       TP   PT




the Patriot Act is the Brandon Mayfield case, which we describe in the next section. The OIG
and the DOJ Office of Professional Responsibility (OPR) have initiated reviews of the
government’s actions in the Mayfield case.



                                                      5
Office of the Inspector General, U.S. Department of Justice


and closed five Section 1001 investigations. A description of the three new
matters opened by the OIG follows.

   •   The OIG opened an investigation of the matter referenced above involving
       Brandon Mayfield. In that case, the FBI concluded that Mayfield’s
       fingerprints matched a fingerprint found on a bag containing detonators
       found by Spanish authorities investigating the Madrid train bombing in
       March 2004. In light of this fingerprint match and other evidence, the
       government obtained a material witness warrant to detain Mayfield.
       After further analysis of the fingerprint, the FBI concluded that the
       fingerprint on the detonator bag was not Mayfield’s, and Mayfield was
       released. Mayfield also has alleged that the FBI inappropriately
       conducted a surreptitious search of his home based on the faulty
       fingerprint analysis and potentially motivated by his Muslim faith and
       ties to the Muslim community. The OIG is reviewing the actions of the
       FBI in this case, and the DOJ Office of Professional Responsibility is
       reviewing the conduct of prosecutors involved in the case.

   •   The OIG is investigating allegations that four individuals of Arab descent
       were detained improperly by FBI agents at a U.S. port of entry. The
       individuals alleged they were questioned, handcuffed, and transported to
       an FBI facility for further questioning without being provided an
       explanation for their detainment. The individuals claimed they were
       fingerprinted, photographed, and subjected to humiliation unnecessarily.

   •   The OIG opened an investigation into allegations that an Egyptian
       national detained by the FBI following the September 11 attacks was
       denied access to an attorney and was promised that he would be
       released from custody if he participated in an interview with the FBI and
       if he agreed to submit to a polygraph examination.

             2.     Examples of cases opened during previous reporting
                    periods that the OIG continued to investigate

   •   The OIG continues its investigation into allegations by the Egyptian
       national identified above in the “New Matters” section that during his
       detention at a BOP facility (subsequent to his FBI interview and
       polygraph examination) he was subjected to an improper and invasive
       body cavity search in the presence of numerous people, including a
       woman.

   •   The OIG is investigating allegations by a Muslim inmate that prior to his
       arrival at a BOP facility, correctional officers informed other inmates that
       he was a radical Muslim who would try to take over the leadership of
       other Muslim inmates. The inmate further alleged that since his arrival


                                            6
Office of the Inspector General, U.S. Department of Justice


       at the BOP facility, he has been subjected to excessive, undocumented
       searches; placed in the special housing unit in retaliation for “writing up”
       correctional officers; and verbally abused, physically threatened, and
       spat upon by a correctional officer.

   •   The OIG continues its investigation of a complaint alleging that Muslim
       inmates at a BOP facility have been targeted for disciplinary actions and
       subjected to disparate treatment by correctional officers. The
       complainant alleged that certain staff BOP members exhibit a general
       animosity toward Muslim inmates and take retaliatory actions against
       them on a regular basis.

   •   The OIG continues its investigation into allegations raised by a Muslim
       inmate that BOP correctional officers subjected him to verbal abuse,
       discriminatory practices, and anti-Islamic sentiment. The inmate
       asserted that these abuses intensified since September 11, 2001, and
       that he was transferred to a different BOP facility in retaliation for filing
       complaints against BOP correctional officers.

   •   The OIG continues its investigation of allegations that a BOP correctional
       officer verbally and physically abused an inmate while he was being
       transported to the prison’s hospital and that the inmate was placed in
       solitary confinement following the incident.

             3. OIG investigations closed during this reporting period

   •   The OIG investigated allegations that unidentified correctional officers
       and the warden of a BOP facility threatened to “gas” inmates of Middle
       Eastern ancestry if war broke out in the Middle East. A BOP inmate
       further alleged that BOP staff members retaliated against him for
       reporting these allegations by placing him in segregation, denying him
       medical treatment, and eventually transferring him to another
       institution. The OIG investigation did not substantiate the allegations,
       and the OIG provided its report of investigation to the BOP.

   •   The OIG investigated allegations that guards at a county jail under
       contract to the former Immigration and Naturalization Service (INS)
       assaulted five detainees, denied them access to the law library, and
       played “America the Beautiful” over the intercom at night. The
       investigation determined that the guards followed prison policy and
       procedure in subduing the detainees involved in a scuffle and did not
       assault the detainees as alleged. The Civil Rights Division declined
       prosecution of this matter and the OIG provided its report of
       investigation to the Department of Homeland Security, which has
       responsibility for the former INS.


                                            7
Office of the Inspector General, U.S. Department of Justice



   •   The OIG investigated allegations that FBI agents conducted an illegal
       search of an Arab American’s apartment and, during the search,
       vandalized the apartment, stole items, and called the complainant a
       terrorist. The complainant alleged that even though the FBI found no
       evidence linking him to terrorism, approximately four months later the
       FBI recruited his friend to plant drugs in the complainant’s home.
       According to the complainant, FBI agents came to his home, conducted a
       consent search, and arrested him after finding the drugs. The
       complainant eventually recanted his allegations that agents vandalized
       his apartment, stole items, and caused drugs to be planted.

       C. Complaints Referred to Other Components

       During this reporting period, the OIG referred 10 of the new complaints
to internal affairs offices within DOJ components for investigation or for closer
review. In one of two complaints referred to the FBI, an inmate alleged he was
arrested by the FBI without a warrant and was coerced into signing advisement
of rights forms that he did not understand because he did not have a
translator. The FBI Inspection Division conducted an investigation and closed
this matter after determining that the complainant was interviewed in the
presence of his attorney. In the other complaint involving the FBI, an
individual who allegedly was questioned by the FBI about terrorism and his
immigration status claimed that he was targeted because he is Muslim and an
Egyptian national. This matter is under review by the FBI Inspection Division.

       One of the 10 complaints was referred to the DEA. The complainant in
that matter alleged that a DEA agent sat next to him on an airplane, identified
himself as a DEA agent, and questioned him about his place of birth,
citizenship, and his travel destination. The complainant alleged he was
targeted because of his “Middle Eastern look.” The DEA Office of Professional
Responsibility closed this matter due to the death of the agent, who was killed
in an off-duty automobile accident.

       Seven of the 10 new complaints were referred to the BOP this reporting
period. They included allegations that staff verbally abused Muslim inmates,
placed Muslim inmates in segregation for no apparent reason, denied Muslim
inmates special foods requested for religious services, and denied Muslim
inmates family visitation. Three of the complaints sent by the OIG to the BOP
were designated as “Monitored Referrals,” which means the BOP is required to
send a report of the investigation to the OIG for its review when it completes its
review. Of these three complaints, the BOP closed one matter as
unsubstantiated while the other two matters remain open. Four of the matters
referred to the BOP were designated as “Management Reviews,” which means
the BOP has the discretion to handle the matter as it deems appropriate and is



                                            8
Office of the Inspector General, U.S. Department of Justice


not required to provide the OIG with a written report of its findings. The BOP
opened investigations on each of these matters.

       D.     Other OIG Activities Related to Allegations of Civil Rights
              and Civil Liberties Abuses

      The OIG has conducted other reviews that go beyond the explicit
requirements of Section 1001 in order to more fully implement its civil rights
and civil liberties oversight responsibilities. Given the multi-disciplinary
nature of its workforce, the OIG can extend its oversight beyond traditional
investigations to include evaluations, audits, and special reviews of DOJ
programs and personnel. Using this approach, the OIG has conducted several
special reviews that address, in part, issues relating to the OIG’s duties under
Section 1001.

              1.     Supplemental Report on September 11 Detainees’
                     Allegations of Abuse at the Metropolitan Detention
                     Center in Brooklyn, New York

      An OIG special review issued in December 2003 (and described in detail
in our January 2004 Section 1001 report) examined allegations that some
correctional officers physically and verbally abused some detainees held in
connection with the Department’s terrorism investigation at the Metropolitan
Detention Center (MDC) in Brooklyn, New York.7 We concluded that certain
MDC staff members abused some of the detainees. While we did not find
evidence that detainees were brutally beaten, we did find that some officers
slammed and bounced detainees against the wall, twisted their arms and
hands in painful ways, stepped on their leg restraint chains, and punished
detainees by keeping them restrained for long periods of time. We determined
that the way these MDC staff members handled the detainees was, in many
respects, unprofessional, inappropriate, and in violation of BOP policy.

      In addition, we found systemic problems in the way detainees were
treated at the MDC, including staff members’ use of a t-shirt taped to the wall
in the facility’s receiving area designed to send an inappropriate message to
detainees, audio taping of detainees’ meetings with their attorneys,
unnecessary and inappropriate use of strip searches, and banging on
detainees’ cell doors excessively while they were sleeping.


       7 “Supplemental Report on September 11 Detainees’ Allegations of Abuse at the

Metropolitan Detention Center in Brooklyn, New York” (MDC Report), issued December 18,
2003. The MDC Report supplemented an OIG report issued in June 2003 entitled, “The
September 11 Detainees: A Review of the Treatment of Aliens Held on Immigration Charges in
Connection with the Investigation of the September 11 Attacks.” Both reports can be found on
the OIG’s internet website (www.usdoj.gov/oig) under “Special Reports.”



                                             9
Office of the Inspector General, U.S. Department of Justice


      We provided the results of our investigation to managers at BOP
Headquarters for their review and appropriate disciplinary action. In a non-
public appendix to the report, we recommended to the BOP that it take
disciplinary action against 10 current BOP employees, counsel 2 current MDC
employees, and inform employers of 4 former MDC staff members about our
findings.

       With respect to the systemic problems we found at the MDC, we made
seven recommendations to the BOP ranging from developing guidance for
training correctional officers in appropriate restraint techniques to educating
BOP staff concerning the impropriety of audio recording meetings between
inmates and their attorneys.

      On February 25, 2004, the BOP responded to the OIG’s systemic
recommendations, and on March 18, 2004, the OIG issued its analysis of the
BOP’s response. The BOP response and the OIG analysis can be found on the
OIG’s website under “Special Reports.” We concluded in our analysis that the
BOP, in general, had taken responsible steps to implement our
recommendations. The BOP is continuing to take action to implement and
respond to several of the recommendations, and we will continue to monitor
the BOP’s progress.

             2.     OIG’s Analysis of the Department’s Responses to the
                    Detainee Report

       In its June 2003 Detainee Report, the OIG made 21 recommendations
related to issues under the jurisdiction of the FBI, the BOP, leadership offices
at the DOJ, as well as immigration issues now under the jurisdiction of the
DHS. During this reporting period, the OIG analyzed the Department’s third
response to our recommendations. We concluded that the Department had
taken responsible steps to implement the recommendations and that only one
recommendation directed at the Department and the DHS remained to be
implemented. The remaining recommendation calls for the Department and
the DHS to enter into a memorandum of understanding (MOU) to formalize
policies, responsibilities, and procedures for managing a national emergency
that involves alien detainees. The Department notified us in May 2004 that
negotiations with the DHS over the language of the MOU are ongoing.

             3.     Review of the BOP’s process for selecting Muslim
                    Religious Service Providers

      On May 5, 2004, the OIG released a report that examined the BOP’s
procedures for selecting individuals who provide Islamic religious services to
federal inmates. The OIG initiated its review in response to concerns from
several members of Congress that the BOP relies solely on two Islamic groups
to endorse its Muslim chaplains, and that these two groups allegedly are


                                           10
Office of the Inspector General, U.S. Department of Justice


connected to terrorism and promote an exclusionary and extreme form of
Islam. Our investigation examined the recruitment, endorsement, selection,
and supervision of Muslim chaplains, contractors, and volunteers who work
with the approximately 9,000 BOP inmates who seek Islamic religious services.

       The OIG review found that while the BOP has made some improvements
in how it selects and supervises Muslim religious services providers, a number
of deficiencies remained. These problems include:

   •   the BOP and the FBI had not adequately exchanged information
       regarding the possible connections to terrorism of Muslim organizations
       that endorse applicants for BOP religious service positions;

   •   because the BOP has no Islamic organizations willing or able to provide
       endorsements for Muslim chaplain candidates, the BOP’s hiring of new
       Muslim chaplains is effectively frozen, resulting in a shortage of Muslim
       chaplains within the BOP;

   •   the BOP does not effectively use the expertise of its current Muslim
       chaplains to screen, recruit, and supervise Muslim religious services
       providers;

   •   the BOP typically does not examine the doctrinal beliefs of applicants for
       religious service positions to determine whether the applicants espouse
       extremist views that pose a security threat to the BOP;

   •   once contractors and certain volunteers gain access to BOP facilities,
       ample opportunity exists for them to deliver inappropriate and extremist
       messages without supervision from BOP staff members; and

   •   BOP inmates often lead Islamic religious services, subject only to
       intermittent supervision from BOP staff members, which increases the
       possibility that inappropriate messages can be delivered to inmates.

       The BOP uses endorsements from local and national Muslim
organizations to help determine whether chaplain, contractor, and volunteer
applicants are able to provide appropriate religious services in a prison setting.
The OIG’s investigation found that the BOP formally requested information and
a threat assessment from the FBI in October 2003 on all Muslim national- and
local-endorsing organizations that had provided endorsements to the BOP.
Pending completion of the FBI’s review, the BOP decided not to accept
endorsements for Muslim clerics from any endorsing organization. In mid-
December 2003, the FBI finished screening the Muslim-endorsing
organizations and determined that some of the organizations were “of interest”




                                           11
Office of the Inspector General, U.S. Department of Justice


although most were not.8 In April 2004, the FBI finally shared the information
about the screened organizations with the BOP.

       The OIG review made 16 recommendations to help the BOP improve its
process for selecting, screening, and supervising Muslim religious services
providers. These recommendations include improving and increasing the
information flow between the BOP and the FBI regarding the radicalization and
recruitment of inmates; requiring that all chaplain, religious contractor, and
certain volunteer applicants be interviewed by at least one individual
knowledgeable of the applicant’s religion; implementing additional security
screening requirements for religious services providers; supervising more
closely inmate-led religious services; using more effectively the expertise of its
current Muslim chaplains to screen, recruit, and supervise Muslim religious
services providers; and developing a strategy specifically targeted towards
recruiting additional Muslim chaplains and contractors.

       In June 2004, the BOP responded to the recommendations and in
July 2004 the OIG analyzed the BOP’s response.9 The BOP’s response resolved
all but three of the recommendations, and the OIG expects to receive an
updated response in October 2004 addressing the three remaining
recommendations.

                4.     Review of the FBI’s implementation of Attorney
                       General Guidelines

      In May 2002, the Attorney General issued revised domestic Guidelines
that govern general crimes and criminal intelligence investigations. The OIG is
conducting a review of the FBI’s implementation of four sets of Attorney
General Guidelines: Attorney General’s Guidelines Regarding the Use of
Confidential Informants; Attorney General’s Guidelines on FBI Undercover
Operations; Attorney General’s Guidelines on General Crimes, Racketeering
Enterprise and Terrorism Enterprise Investigations; and Revised Department of
Justice Procedures for Lawful, Warrantless Monitoring of Verbal
Communications.

      The objectives of the OIG review are to determine what steps the FBI has
taken to implement the Guidelines, examine how effective those steps have
been, and assess the FBI’s compliance with key provisions of the Guidelines.
Because the FBI’s adherence to these Guidelines could implicate civil rights or


        8 The OIG prepared a classified addendum to its report that provides more information

about organizations and individuals that were determined by the FBI to be “of interest.” This
classified addendum has been provided to BOP and Department officials, as well as to
Congress.

       9   Both documents appear on the OIG’s internet website under “Special Reports.”


                                              12
Office of the Inspector General, U.S. Department of Justice


civil liberties issues under Section 1001, we are including a description of this
review in our report.

IV.   ADVERTISING RESPONSIBILITIES

      Make public through the Internet, radio, television, and newspaper
      advertisements information on the responsibilities and functions of,
      and how to contact, the official.

       The OIG continues to meet its Section 1001 advertising requirements in
a variety of ways.

      A.     Internet

       The OIG’s website contains information about how individuals can report
violations of their civil rights or civil liberties. On our website, the OIG also
continues to promote an e-mail address – inspector.general@usdoj.gov – where
individuals can send complaints of civil rights and civil liberties violations.
During this reporting period, the OIG received most of the 1,613 complaints via
e-mail.




                                           13
Office of the Inspector General, U.S. Department of Justice


      The OIG previously developed a poster, translated in Arabic, that
explains how to file a civil rights or civil liberties complaint with the OIG.
An electronic version of this poster is also available on our website.

      The DOJ’s main Internet homepage contains a link that provides a
variety of options for reporting civil rights and civil liberties violations to the
OIG. The Civil Rights Division’s website also describes the OIG’s role in
investigating allegations of misconduct by DOJ employees and provides
information on how to file a complaint with the OIG.

        In addition, several minority and ethnic organizations have added
information to their websites about how to contact the OIG with civil rights and
civil liberties complaints. For example, the Arab American Institute
(www.aaiusa.org), an organization that represents Arab Americans’ interests
and provides community services, added the OIG’s Section 1001 poster to its
website of information and resources for the Arab American community. The
Institute also has informed its members and affiliates of the OIG’s Section 1001
responsibilities through its weekly e-mail newsletter. Similarly, the American-
Arab Anti-Discrimination Committee (ADC), one of the largest Arab American
organizations in the nation, has posted the OIG’s contact information and
Section 1001 responsibilities on its website, which at one time averaged more
than 1 million hits per month. The ADC also has published the OIG’s Section
1001 responsibilities in its magazine, the ADC Times, which is circulated to
more than 20,000 people. Furthermore, the OIG’s Arabic poster and Section
1001 responsibilities have been disseminated electronically by the Council on
American Islamic Relations LISTERV and the National Association of Muslim
Lawyers LISTSERV.

      B.     Television

       In the prior reporting period, the OIG arranged to have the following
television advertisement aired with the text spoken in Arabic and scrolled in
English:

      The Office of the Inspector General investigates allegations of
      civil rights and civil liberties abuses by U.S. Department of
      Justice employees. If you believe a Department of Justice
      employee has violated your civil rights or civil liberties, contact
      the Inspector General at 800-869-4499. That number again is
      800-869-4499.

       The OIG purchased blocks of time on ANA Television Network, Inc., an
Arab cable television station with outlets around the country. According to the
promotional materials, ANA Television Network is the largest Arab-American
television network in the country and broadcasts news and entertainment



                                           14
Office of the Inspector General, U.S. Department of Justice


24 hours a day. The segment aired 48 times during prime time in June and
July 2003.

      C.     Radio

     Also in the prior reporting period, the OIG submitted public service
announcements to 45 radio stations in cities across the country, including
New York, Los Angeles, Sacramento, Chicago, Detroit, Houston, Dallas, and
Washington, D.C. The text of the PSA read:

      The Office of the Inspector General investigates allegations of
      civil rights and civil liberties abuses by U.S. Department of
      Justice employees. If you believe a Department of Justice
      employee has violated your civil rights or civil liberties, contact
      the Inspector General at 800-869-4499.

      Last year, we also purchased airtime for 44 radio advertisements on
Arab/Muslim American radio stations in New York, Chicago, Los Angeles,
Detroit, and Dallas. These advertisements, which ran in late 2003, were 60
seconds long and included the same script listed above both in English and
Arabic.

      D.     Posters

       Previously, the OIG disseminated approximately 2,500 Section 1001
posters to more than 150 organizations in 50 cities. The posters, in English
and Arabic, explain how to contact the OIG to report civil rights and civil
liberties abuses.

       In an earlier reporting period, we also provided the posters to the BOP,
which placed at least two in each of its facilities. We have received hundreds of
complaints each reporting period from inmates alleging civil rights and civil
liberties abuses, many of which we believe were sent to us in response to the
posters.




                                           15
Office of the Inspector General, U.S. Department of Justice




      E.     Newspapers

      During this reporting period, the OIG purchased additional newspaper
advertisements highlighting its role in investigating allegations of civil rights
and civil liberties abuses. The display advertisement was placed in an Arab
community newspaper and appeared both in English and Arabic.


                                           16
Office of the Inspector General, U.S. Department of Justice




                                           17
Office of the Inspector General, U.S. Department of Justice


       F.      Flyers

      Flyers have been translated into several commonly spoken languages in
the Muslim world, including Arabic, Urdu, Punjabi, and Vietnamese. The OIG
intends to provide these flyers and a forthcoming flyer translated into
Indonesian to the BOP with a request that they be made available to incoming
inmates in their native languages.




 REPORT
 CIVIL RIGHTS & CIVIL LIBERTIES ABUSES
                                                        The Office of the Inspector General
                                                        (OIG), U.S. Department of Justice,
                                                        investigates allegations of civil rights
                                                        and civil liberties abuses by
                                                        Department of Justice employees in
                                                        the FBI, DEA, ATF, Federal Bureau
                                                        of Prisons, U.S. Marshals Service,
                                                        U.S. Attorneys Offices, and all other
                                                        Department of Justice agencies.

                                                        If you believe a Department
                                                           of Justice employee has
                                                        violated your civil rights or
                                                        civil liberties, you may file a
                                                        complaint with the OIG by:

                                                        mail: Civil Rights & Civil Liberties Complaints
                                                              Office of the Inspector General
                                                              U.S. Department of Justice
                                                              950 Pennsylvania Avenue, NW
 mail: Civil Rights & Civil Liberties Complaints              Washington, D.C. 20530
       Office of the Inspector General
       U.S. Department of Justice                       e-mail: inspector.general@usdoj.gov
       950 Pennsylvania Avenue, NW
       Washington, D.C. 20530                           or fax: (202) 616-9898
 e-mail: inspector.general@usdoj.gov
 or fax: (202) 616-9898                            18   For more information, call (800) 869-4499 or
                                                        visit the OIG’s website at www.usdoj.gov/oig
 For more information, call (800) 869-4499 or
 visit the OIG’s website at www.usdoj.gov/oig
Office of the Inspector General, U.S. Department of Justice



V.    EXPENSE OF IMPLEMENTING SECTION 1001

      Submit to the Committee on the Judiciary of the House of Representatives
      and the Committee on the Judiciary of the Senate on a semi-annual basis
      a report…including a description of the use of funds appropriations used to
      carry out this subsection.

       During this reporting period, the OIG spent approximately $322,800 in
personnel costs, $19,762 in travel costs (for investigators to conduct
interviews), and $2,105 in advertising and publication costs, for a total of more
than $344,668 to implement its responsibilities under Section 1001. The
personnel and travel costs reflect the time and funds spent by OIG Special
Agents, inspectors, and attorneys who have worked directly on investigating
Section 1001-related complaints and on conducting special reviews.




                                           19
